APPENDIX A. 1

v

r
r
UNITED STATES COURT OF APPEALS

FILED
DEC 1 7 2002

FOR THE NINTH CIRCUIT

CATHY A: CATTERSON, CLERK
U.S. COURT OF APPEALS

No. 02-80106

RODNEY BERRYMAN, SR.,
Petitioner-Appellant,

D.C. No. CV-95-05309-AWI
7? n r1-’

V.

JEANNE S. WOODFORD, Warden,

ORDER

Respondent-Appellee.
Before: WALLACE, McKEOWN, and FISHER, Circuit Judges
cfmuv
ia Rornmion’c
T\\T
y vq vV/iiJU
» -i viij1 mull o

‘‘T-Tvo^-mfc
r»f T? f*mrr\ P'iIpH T JnHgT Seal Wit!*
xjavvij^/vu v/a. a.wvvi v« a iavv* v/ixwv*
- u* Con^t”
v

as a motion for leave to file said excerpts under seal. So construed, the motion is
granted. The Clerk shall file under seal the excerpts of record submitted by
Berryman.
In his pro se “Petition for Permission to File Interlocutory Appeal Pursuant
to 28 U.S.C. § 1292(a)(1); and Appeal in Light of Final Ruling by Lower Court”
(“Berryman’s Petition”), Berryman asserts that the district court erred in refusing
to file his pro se motion for reconsideration objecting to the district court’s
procedure for determining whether substitution of counsel was necessary.
Because Berryman will be able to raise on appeal from a final judgment the issue
of whether he was prejudiced by the district court’s refusal to file his pro se
motion, immediate appeal is not available under either the collateral order doctrine
\

I

or 28 U.S.C. § 1292(a)(1). See Coopers & Lyband v. Livesay, 437 U.S. 463,468
(1978) (order is not immediately appealable under collateral order doctrine unless
effectively unreviewable on appeal from final judgment); Gamboa v. Chandler,
101 F.3d 90, 91 (9th Cir. 1996) (en banc) (order that can be effectively challenged
after final judgment is not immediately appealable under 1292(a)(1)).
, Nor is there is any basis for an interlocutory appeal pursuant to 28 U.S.C. §
1292(b). See 28 U.S.C. § 1292(b) (order appealed from must involve a controlling
question of law as to which there is substantial ground for difference of opinion
and, even then, it is fully within the discretion of the court of appeals to deny
permission). Although Berryman cites two cases from other circuits addressing
substitution of appointed counsel in 28 U.S.C. § 2254 capital proceedings, neither
of these cases addresses whether a district court is required to accept pro se filings
when the petitioner asserts an irreconcilable conflict with appointed counsel.
As immediate appeal is unavailable, we construe Berryman’s Petition as a
petition for writ of mandamus. Because a district court may require a petitioner to
communicate with the court through appointed counsel even when the petitioner

1 See Johnson v. Gibson, 169F.3d 1239,1253-54 (10th Cir. 1999); Hunter v.
Delo, 62 F.3d 271, 273-76 (8th Cir. 1995).
2

r
AI

asserts an irreconcilable conflict with appointed counsel,2 the district court did not
err, let alone clearly err, when it refused to file Berryman’s pro se motion for
reconsideration. Accordingly, the extraordinary writ of mandamus is denied. See
Bauman v. United States Dist. Court, 557 F.2d 650, 654-55 (9th Cir. 1977). We
need not, and do not, rale on die issue of whether new counsel should be
appointed.

2 There is no evidence in the record -- sealed or unsealed — suggesting that
appointed counsel have refused to present Berryman’s complaints to the district
court.
3

j

FILED

i

UNITED STATES COURT OF APPEALS

JUN 1 3 2003

FOR THE NINTH CIRCUIT
No. 02-80106
RODNEY BERRYMAN, SR,
Petitioner-Appellant,

D.C. No. CV-95-05309-AWI
E.D. Cal.

v.
ORDER
JEANNE S. WOODFORD, Warden, of
California State Prison at San Quentin,
Respondent-Appellee.

Before: WALLACE, McKEOWN, and FISHER, Circuit Judges

Judges McKeown and Fisher have voted to reject the petition for rehearing
en banc and Judge Wallace recommends rejection. The full court has been
advised of the petition for rehearing en banc and no active judge has requested a
vote on whether to hear the matter en banc. See Fed. R. App. P. 35. The petition
for rehearing en banc is rejected.

I
I

I

j

APPENDIX A. 2
vi

Case: 10-99004

05/01/2014

ID: 9080298

DktEntry: 121-2

Page: 1 of 1

Office of the Clerk
United States Court of Appeals for the Ninth Circuit
Post Office Box 193939
San Francisco, California 94119-3939
415-355-8000
Molly C. Dwyer
Clerk of Court

No.:
D.C.No.:
Short Title:

May 01, 2014

10-99004
l:95-cv-05309-AWI
Rodney Berryman, Sr. v. Robert'Wong

Dear Appellant:
This court filed your recent transmittal to this office. However, because you are
represented by counsel, this court declines to entertain your filing. The court has
served your filing on your counsel.

(23 of 23)

APPENDIX A. 3
vii

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

DEC 18 2018
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

RODNEY BERRYMAN, Sr.,
Petitioner-Appellant,
v.

ROBERT K. WONG,

No.

10-99004

D.C.No. l:95-cv-05309-AWI
Eastern District of California,
Fresno
ORDER

Respondent-Appellee.
Before: McKEOWN, CHRISTEN, and WATFORD, Circuit Judges.
The court is in receipt of Appellant’s pro se motions. Dkt. Nos. 329, 330.
The Clerk shall serve copies of the pro se motions on Appellant’s counsel of
record. Because Appellant is represented by counsel, only counsel may submit
filings, and this Court therefore declines to entertain the submissions.
Appellant is advised that counsel is vested with the authority to determine
which issues should be raised on appeal. See Jones v. Barnes, 463 U.S. 745, 751
53(1983)
The Clerk shall serve this order on Appellant individually at Reg. No. E03500, San Quentin Prison, San Quentin, California 94964.

APPENDIX A. 4
viii

TIM BROSNAN
ATTORNEY AT LAW

P.O.B. 2294
Mill Valley, CA 94941
Telephone (415) 962-7967

ATTORNEY - CLIENT
COMMUNICATION: CONFIDENTIAL
May 14, 2019
MR. RODNEY BERRYMAN, E-03500
CSP-SQ
San Quentin, CA 94974
RE:

Berryman v. Warden',

Dear Rodney:
Greetings. Gail left a voice mail, forwarding your request that we provide a copy of the
clerk's Docket Text document. I apologize for any confusion - there is no "Docket Text" document.
A "Docket Text" is not a document, it is simply an entry in the docket which the Clerk makes.
The Clerk's Office automatically sends an email notice to all counsel in your case whenever
there is a filing in your case. When your April 9, 2019, filing was filed, the email notice from the .
Court stated:
Docket Text:.
Filed Appellant Rodney Berryman, Sr. pro se motion to grant new trial under People v.
Eddy. Served on 04/07/2019. Deficiency: party has CJA counsel. PANEL [11258280] (CW)
: As stated above/there is no "Docket Text" document. "Docket Text" merely means that the
Clerk made an entry in the Court's docket, which is the Court's file for your case.
I also checked the Clerk's docket itself; all it states is:
04/09/2019
348 Filed Appellant Rodney Berryman, Sr. pro se motion to grant new trial
under People v. Eddy. Served on 04/07/2019, Deficiency: party has CJA counsel. PANEL
[11258280] (CW) [Entered: 04/09/2019 03:00 PM]
You will notice that the language, "Deficiency: party has CJA counsel. PANEL," contained
in the docket is exactly the same as that contained in the email which the Clerk's Office sent,
announcing that your April 9, 2017, pleading was filed.
There have been no related filings since then.
Best wishes.
Very truly yours
Tim Brosnan
cc: SaorStetfer
Enclosures
TB/tb

APPENDIX A. 5
ix

(i or zb)
Case: 10-99004, 03/27/2020, ID: 11643446, DktEntry: 349-1, Page 1 of 21

FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Rodney Berryman, Sr.,
Petitioner-Appellant,

No. 10-99004

v.

D.C. No.
1:95-cv-05309-AWI

Robert K. Wong,
Respondent-Appellee.

OPINION

Appeal from the United States District Court
for the Eastern District of California
Anthony W. Ishii, District Judge, Presiding
Argued and Submitted January 30, 2019
University of San Diego, California
Filed March 27, 2020
Before: M. Margaret McKeown, Morgan Christen,
and Paul J. Watford, Circuit Judges.
Per Curiam Opinion

Case: 10-99004, 03/27/2020, ID: 11643446, DktEntry: 349-1, Page 2 of 21

2

Berryman v. Wong
SUMMARY*

Habeas Corpus
The panel affirmed the district court’s denial of Rodney
Berryman, Sr.’s federal habeas corpus petition challenging
his California state murder conviction and death sentence.
In Claim 65, as to which the district court granted a
certificate of appealability, Berryman alleged that he was
denied his Sixth Amendment right to counsel at the penalty
phase because his lawyers' failed to present additional
evidence of his family history and social background. The
panel held that fairminded jurists could conclude that the
California Supreme Court’s conclusion that Berryman failed
to show that he was prejudiced by any deficiency in his
counsel’s performance was correct.
The panel granted Berryman’s motion to expand the
COA as to four additional claims.
In Claims 15 and 16, Berryman alleged that his trial
lawyers were ineffective in (a) failing to present expert
psychological and psychiatric testimony at the guilt phase to
support his argument that the killing was not premeditated
or intentional and (b) failing to seek out and develop social
history evidence and additional expert testimony to establish
Berryman’s brain disease and mental state for use at the
guilty phase. The panel held that the California Supreme
Court’s determination that Berryman was not prejudiced by
This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

(z or zb)

V

Case: 10-99004, 03/27/2020, ID: 11643446, DktEntry: 349-1, Page 3 of 21

Berryman v. Wong

3

counsel’s failure to seek out or present mens rea evidence at
the guilty phase was reasonable.
'

In Claims 63 and 64, Berryman asserted that his lawyer
was ineffective at the guilt and penalty phases for failing to
obtain the trial court’s transport order and funding
authorization for neurological tests. The panel held that the
California Supreme Court’s conclusion that the tests lacked
the capacity to produce results that might have moved a juror
to vote to acquit or to vote for life in prison was reasonable,
and that it was therefore reasonable for the California
Supreme Court to conclude that Berryman suffered no
prejudice from his defense counsel’s failure to seek out these
tests and press this argument.

COUNSEL
Saor E. Stetler (argued), Mill Valley, California; Tim___
Brosnan, Mill Valley, California; for Petitioner-Appellant.
Brian R. Means (argued), Deputy Attorney General;
Kenneth N. Sokoler and Brian G. Smiley, Supervising
Deputy Attorneys General; Michael P. Farrell, Senior
Assistant Attorney General; Xavier Becerra, Attorney
General; Office of the Attorney General, Sacramento,
California; for Respondent-Appellee.

or zb)

(4 or zb)
Case: 10-99004, 03/27/2020, ID: 11643446, DktEntry: 349-1, Page 4 of 21

4

Berryman v. Wong
OPINION

PER CURIAM:
A California jury sentenced Rodney Berryman, Sr., to
death for the 1987 murder of Florence Hildreth. The
California Supreme Court affirmed his conviction and
sentence on direct appeal, see People v. Berryman, 864 P.2d
40, 48 (Cal. 1993), and summarily denied his state habeas
petition. This is the appeal from the district court’s denial of
Berryman’s federal petition for a writ of habeas corpus. We
affirm.
I. Background
' A. Guilt Phase
Berryman was convicted of murder with special
circumstances: felony-murder-rape with the use of a
dangerous weapon. Id. at 47. The jury heard that Hildreth,
the victim, was a 17-year-old high school student. Id. at 48.
She and Berryman were acquaintances. Id. Around
10:45 p.m. on the night of her death, Hildreth left one aunt’s
house to walk to another’s. Id. She never reached her
destination, and her body was found the next morning
sprawled on a nearby dirt road. Id. at 48r49. Her clothes
had been pulled partly off, and forensic evidence suggested
that she had been sexually assaulted. Id. at 49. Her death
was caused by a shallow stab wound in her neck, which had
nicked her carotid artery. Id. A mark on her right cheek had
evidently been left by the sole of a shoe, pressing down on
her head for several minutes as she died. Id.
Shoe prints in the dirt at the crime scene were similar to
those of Berryman’s shoes, and nearby tire tracks were
similar to the tracks left by the tires of Berryman’s truck. Id.

Case: 10-99004, 03/27/2020, ID: 11643446, DktEntry: 349-1, Page 5 of 21

Berryman v. Wong

5

A blood stain on his shoe was consistent with Hildreth’s
blood but not his own; it would have matched only 1 in 1,470
people who, like Hildreth, were African-American. Id.
Small golden chain links found at the scene were consistent
with a broken necklace found in Berryman’s truck. Id.
Berryman told the police that Hildreth had never been in
his truck, but her thumb print was found inside the
passenger-door window. Id. He also said that he had not
been on a nearby road the night of her death, but a witness
saw his truck in that location. Id. at 48—49. Berryman
appeared to know that Hildreth had been stabbed before that
information was made public. Id. at 49.
Berryman’s lawyer, Charles Soria, argued that the
government’s timeline did not add up and that Berryman
could not possibly have been present to commit the crime.
Although he argued at length that the prosecution had
charged the wrong person, Soria briefly argued in thealternative that Berryman might have lost his temper after
consensual sex and was guilty only of voluntary
manslaughter.
B. Penalty Phase
After the jury’s guilty verdict, the State offered
additional aggravating evidence at the penalty phase. The
jury heard that Berryman had previously been convicted of
marijuana transportation and grand theft. Id. at 50. Two
other witnesses testified to uncharged misconduct. One
witness had been in a fight with Berryman in which he
alleged that Berryman struck him with a tire iron. Id. The
other witness, Berryman’s father-in-law, recounted a scuffle
during which Berryman hit him on the nose. Id.

lb or Zb)

Case: 10-99004, 03/27/2020, ID: 11643446, DktEntry: 349-1, Page 6 of 21

6

Berryman v. Wong

Berryman’s lawyers called twenty-one witnesses in
mitigation. Many of the witnesses were friends and
relatives, including Berryman’s wife, siblings, and mother.
Family and friends testified that Berryman was warm and
loving and always peaceful with women. Mat 51. The jury
heard that Berryman’s parents had a bad marriage and that
his father was violent with his mother. Id. at 50. The
witnesses testified that Berryman was not given enough
attention and affection as a child. Id. The family moved
often, and Berryman struggled in school. Id. As a teenager,
he began to abuse alcohol and, after a work-related injury to
the head, he began experiencing disabling headaches. Id.
After Berryman got married in 1986, his life improved.
He and his wife had a son, and Berryman was an active
participant in his father-in-law’s church. Id. But after he
lost his job, he began drinking heavily again, leading to “a
precipitous downward spiral.” Id. He and his wife separated
shortly before Hildreth’s murder. Id. at 50-51.
Two expert witnesses testified about Berryman’s mental
health and development. Dr. William Pierce, a clinical
psychologist, diagnosed Berryman with an “alcohol induced
organic disorder.” Id. at 51. On psychological tests, he saw
consistent signs of organicity”—a term then used to
describe psychological disorders with apparent physical
origins, such as brain damage. Based on his observations,
Dr. Pierce opined that further neurological testing was
required to “confirm or disconfirm the presence of an
organic mental syndrome.” But he explained that he had
been unable to administer the necessary tests because the
Kern County hospitals would not grant him permission.
Dr. Samuel Benson, a psychiatrist, agreed that Berryman
exhibited signs of “organicity.” Id. He opined that
Berryman “does, in fact, suffer from an organic mental

(b or Zb)

Case: 10-99004, 03/27/2020, ID: 11643446, DktEntry: 349-1, Page 7 of 21

Berryman v. Wong

7

syndrome, that it’s probably alcohol induced, but [that] other
factors in addition to his consumption of alcohol” also
contribute, among them “head trauma.” Id. He testified that
Berryman had sustained head trauma on other occasions,
including a work-related fall from a crane or forklift, and
once when he was hit with a pipe. Dr. Benson agreed with
Dr. Pierce that additional testing was necessary—in
particular, an electroencephalogram (EEG). This test would
measure Berryman’s brain activity to determine whether he
was suffering from seizures. Drs. Benson and Pierce
testified that these seizures could have caused Berryman to
become violent and disoriented and experience blackouts.
Dr. Benson would also have administered an alcoholinduced EEG, which looks for seizures specifically brought
on by alcohol. He, too, testified that local hospitals refused
to allow the tests.
On cross-examination, Dr; Benson agreed that he had no
information that Berryman had ever experienced a blackout
or a seizure or that Berryman had ever become lost or
disoriented. He explained that because he was unable to
perform the EEG tests, he did not know whether Berryman
had a seizure disorder. He also conceded that, while an
individual might be violent during a seizure episode, it
would not be possible for him to commit rape.
During closing arguments, the prosecutor criticized the
defense for failing to have the EEG tests performed. He
offered one possible explanation for that failure: “Because
as it stands, they have something to talk about.... They
don t want that test to be performed because it will rule out
[brain damage] and then they wouldn’t have anything to talk
about.” The prosecutor argued that even if there had been
tests showing brain damage, they would not have made a

(/ or zb)

Case: 10-99004, 03/27/2020, ID: 11643446, DktEntry: 349-1, Page 8 of 21

.)

8

Berryman v. Wong

difference. The experts’ hypothesis, he argued, did not fit
the rape-murder facts of the case.
The jury returned a sentence of death. Id. at 47.
C. Postconviction Proceedings
In state habeas proceedings, Berryman’s new counsel
presented additional mitigating evidence about Berryman’s
early life. This evidence included declarations from
Berryman’s mother and sister, who offered more details
about Berryman’s childhood and stated that they would have
provided this information at the penalty phase if they had
been asked or adequately prepared.
Berryman’s lawyers also offered new evidence about
trial counsel Soria’s failure to obtain the scientific tests his
experts had requested. Dr. Pierce stated in a declaration that
he had told Soria that “further neurological testing was
required to determine whether Mr. Berryman suffered from
organic brain damage.” Dr. Pierce suggested several tests,
including an EEG and alcohol-induced EEG. He “told Mr.
Soria that if further testing confirmed the existence of brain
damage, this information should be used in the guilt part of
the trial in addition to the penalty part of the trial.”
Dr. Benson agreed that confirmation of his diagnosis
required further testing—specifically, an EEG, an alcoholinduced EEG, and a Positron Emission Tomography (PET)
scan. He explained that after learning the local hospitals
would not perform the tests, he suggested to Soria that they
have the tests performed in a different part of the State.
Soria, however, told him that the court would not authorize
such expensive tests to be performed outside of Kern
County. Without the testing, Dr. Benson was unable to
conclude with certainty that Berryman had brain damage.

(a or zb)

(y or zb)

Case: 10-99004, 03/27/2020, ID: 11643446, DktEntry: 349-1, Page 9 of 21

Berryman v. Wong

9

Like Dr. Pierce, Dr. Benson told Soria that his testimony,
especially if confirmed by testing, could be used at the guilt
phase to diminish Berryman’s “culpability for the killing.”
Soria explained in his own declaration that he never
requested a transfer order to take Berryman out of Kern
County for testing. This was because he “believed at the
time the court would not issue such an order.” In a case two
years after Berryman’s, however, Soria successfully
obtained transfer orders from the same trial judge to get an
out-of-county EEG and PET scan for another client. Soria
conceded there was “no reason why a similar order would
not have issued in [Berryman’s] case” had Soria sought one.
Berryman’s postconviction counsel asserted ineffective
assistance of counsel claims, both on direct appeal and iin a
state habeas petition. Berryman’s conviction and sentence
were affirmed on direct appeal in a reasoned opinion by the
California Supreme Court. See Berryman, 864 P.2d at 48.
The same day, the California Supreme Court summarily
denied his habeas petition on the merits.
Berryman filed a federal petition for a writ of habeas
corpus asserting numerous claims of error, all of which the
district court denied. The district court granted a certificate
of appealability (COA) as to Claim 65, Berryman’s
allegation of penalty-phase ineffective assistance of counsel
for failure to present additional evidence of his family
history and social background. On appeal, Berryman presses
that issue and requests that we expand the COA to
encompass fourteen other claims. We expand the COA to
include four additional claims, discussed below, but
otherwise deny Berryman’s request. See Hedlund v. Ryan
854 F.3d 557, 565 (9th Cir. 2017).

r

Case: 10-99004, 03/27/2020, ID: 11643446, DktEntry: 349-1, Page 10 of 21

10

Berryman v. Wong
II. Discussion

Because the California Supreme Court rejected each of
the claims at issue here on the merits, the Antiterrorism and
Effective Death Penalty Act of 1996 applies. See 28 U.S.C.
§ 2254(d). The parties disagree whether the relevant
decision is the California Supreme Court’s opinion on direct
appeal, as Berryman asserts, or its summary denial of his
state habeas petition, as the State contends. We need not
resolve that dispute because, even accepting Berryman’s
argument, he still cannot prevail on any of his claims.
Under § 2254(d), we must defer to a state court’s
decision unless it “was contrary to, or involved an
unreasonable application of, clearly established Federal
law,” or “was based on an unreasonable determination of the
facts in light of the evidence presented in the State court
proceeding.” 28 U.S.C. § 2254(d).
For ineffective
assistance of counsel claims, the clearly established federal
law is Strickland v. Washington, 466 U.S. 668 (1984). To
succeed, Berryman must show that his counsel’s
performance “fell below an objective standard of
reasonableness,” id. at 688, and that “there is a reasonable
probability that, but for counsel’s unprofessional errors, the
result of the proceeding would have been different,” id. at
694.

♦.

We may grant Berryman habeas relief only if the
California Supreme Court’s application of Strickland was
“objectively unreasonable.” Williams v. Filson, 908 F.3d
546, 563 (9th Cir. 2018) (internal quotation marks omitted).
That means we may issue the writ only if “there is no
possibility fairminded jurists could disagree that the state
court’s decision conflicts with [the Supreme] Court’s
precedents.” Harrington v. Richter, 562 U.S. 86, 102
(2011).

(iu or zb)

Case: 10-99004, 03/27/2020, ID: 11643446, DktEntry: 349-1, Page 11 of 21

Berryman v. Wong

11

A. Claim 65
Berryman alleges that he was denied his Sixth
Amendment right to counsel at the penalty phase because his
lawyers failed to present additional evidence of his family
history and social background. The California Supreme
Court held that Berryman failed to show that he was
prejudiced by any deficiency in his counsel’s performance.
The state court concluded that Berryman did not “establish
ineffective assistance in defense counsel’s asserted failure to
further investigate his background and character .... He
[did] not demonstrate that such further investigatory efforts
would have yielded favorable results. Hence, he cannot
demonstrate that their omission adversely affected the
outcome within a reasonable probability.” Berryman
864 P.2d at 78.

(

Fairminded jurists could conclude that the California
Supreme Court’s application of Strickland was correct.
Nearly all of the “new” evidence that Berryman argues the
jury should have heard was not new at all. The rest of the
evidence, a fairminded jurist could conclude, would not have
been sufficient to make a different result reasonably
probable.
We begin with a discussion of the “new” evidence that
was cumulative of evidence the jury previously heard. First,
Berryman argues that his lawyers should have presented
evidence that Berryman’s mother “showed him little love
and affection during his early formative years.” But during
the penalty phase the jury heard evidence concerning the
emotional deficits in Berryman’s relationship with his
mother. Witnesses testified that his mother was largely
absent, that her children did not get “the attention that [they]
should have,” and that Berryman was left with “a hole in the

p i or zt>)

Case: 10-99004, 03/27/2020, ID: 11643446, DktEntry: 349-1, Page 12 of 21

12

Berryman y. Wong

bucket around mothering and nurturance” that continued to
affect his relationship with women in adulthood.
Second, Berryman maintains that his lawyers should
have presented evidence concerning his turbulent childhood.
But the jury heard that Berryman’s family moved often; that
his father drank heavily; that Berryman developed problems
with alcohol; and that he was devastated by his father’s death
and, for some period of time, refused to accept that his father
had died.
Third, Berryman faults his lawyers for not presenting
evidence that his father beat his mother in front of him and
his siblings, including an incident in which his mother
escaped by running into the street and was nearly hit by a
car. Although Berryman’s mother did not provide the
specifics of any particular incident, she did testify during the
penalty phase that Berryman’s father was violent toward her.
Finally, Berryman contends that his lawyers should have
introduced evidence that he did poorly in school, was
frequently placed in special education classes, and in the
third grade had an IQ score of 75, which is in the borderline
intellectually disabled range. But the jury heard repeatedly
during trial that Benyman had a learning disability and
intellectual deficiencies, and that he did poorly in school and
was placed in specialized classes.
Berryman’s habeas petition does offer some new
evidence that was not presented at trial. The jury did not
hear that he was bom prematurely, that he spent the first
month of his life in an incubator, or that his father was a

{iz orzb)

Case: 10-99004, 03/27/2020, ID: 11643446, DktEntry: 349-1, Page 13 of 21

Berryman v. Wong

13

womanizer.1 This new evidence, we will assume, should
have been discovered and presented to the jury. And we will
assume that Berryman’s lawyers should have presented
some of the additional details not fully captured above, such
as the details concerning his low IQ score and his father’s
abuse of his mother. Nonetheless, even if this evidence had
been presented to the jury, it would not have significantly
altered the character of the evidence supporting mitigation.
Reasonable jurists could therefore conclude that admission
of this evidence would not have led to a reasonable
probability of a different sentence. See Cullen v. Pinholster,
563 U.S. 170, 200—02 (2011) (affirming a state court’s
finding of no prejudice notwithstanding new mitigation
evidence of roughly the same strength as that presented
here).
B. Claims 15 and 16
Berryman requests that we expand the COA to .
encompass Claims 15 and—16;- Claim 15 alleges that
Berryman’s trial lawyers were ineffective in failing to
present expert psychological and psychiatric testimony at the
guilt phase to support his argument that the killing was not
premeditated or intentional. Claim 16 alleges that his trial
lawyers were further ineffective in failing to seek out and
develop social history evidence and additional expert
testimony to establish Berryman’s brain disease and mental
state for use at the guilt phase. We conclude that “jurists of
reason could disagree” with the district court’s denial of
1 Berryman also presents affidavits from his mother and sister, both
of whom state that he told them after his arrest that he was molested by
, two of his uncles when he was about eight years old. This evidence,
however, is inadmissible hearsay. See Fed. R. Evid. 801(c), 802-805^
The district court therefore did not consider it, and neither do we See
Fed. R. Evid. 1101(aHb).

(13 or zb)

(14 or zb)
Case: 10-99004, 03/27/2020, ID: 11643446, DktEntry: 349-1, Page 14 of 21

14

Berryman v. Wong

these claims, and therefore expand the COA to cover them.
Miller-El v. Cockrell, 537 U.S. 322, 327 (2003); see
28 U.S.C. § 2253(c)(2). Ultimately, though, we agree with
the district court that the claims must be denied.
In rejecting these closely related claims, the California
Supreme Court concluded:
Neither does defendant establish ineffective
assistance in defense counsel’s asserted
failure to investigate his mental state at the
time of the crime or to introduce evidence
thereon.
Here as well, he does not
demonstrate that the investigation would
have yielded favorable results and hence
cannot demonstrate that its omission
adversely affected the outcome within a
reasonable probability.
Berryman, 864 P.2d at 61 (footnote omitted). In other
words, the state court determined that Berryman was not
prejudiced by counsel’s failure to seek out or present mens
rea evidence at the guilt phase, That decision was
reasonable.
Berryman argues that his lawyers should have presented
expert testimony supporting the theory that, although he
killed Hildreth, he did so without premeditating or forming
the specific intent to kill. In support, he points to Dr. Pierce’s
and Dr. Benson’s testimony at the penalty phase, in which
they offered their diagnosis of possible organic brain
syndrome, as well as both doctors’ affidavits on state habeas
review, in which they stated that they told Soria their
findings could be helpful at the guilt phase of trial.

(15 or zb)
Case: 10-99004, 03/27/2020, ID: 11643446, DktEntry: 349-1, Page 15 of 21

Berryman v. Wong

15

Trial counsel’s failure to present this evidence could
have prejudiced Berryman only if the argument it supported
had the potential to sway a jury. But presenting this evidence
during the guilt phase would have required admitting to the
jury that Berryman was present at the scene, had sex with
Hildreth, and delivered the fatal cut to her neck. And
because the expert testimony was that it would have been
impossible for Berryman to have had sex during a seizure,
his counsel would have been forced to argue that he and
Hildreth engaged in consensual sex and that he had the
seizure only afterward. It is reasonable to assume that this
argument would likely have been greeted with extreme
skepticism. The fact that Hildreth was found left on a dirt
road with her clothes in disarray and a shoe imprint on her
face would have made it seem frivolous to argue that her
killing had occurred during a seizure, or was otherwise the
product of unintentional conduct, The evidence was
inconsistent with the shoeprint on her face being inflicted in
a momentary outburst or by accident. Berryman, 864 P.2d
at 49 (estimating the mark took “more than one minute and
perhaps as long as three to five” to make).2
The difficulty of persuading a jury of this theory would
have been compounded by the lack of any case-specific
evidence in support of it. Although his experts could have
opined that it was possible for Berryman to have had a
seizure and a fit of violence after consensual sex, Berryman
does not suggest that he would have taken the stand to testify
that that is what happened. Nor is there any physical
evidence to back up the account. Berryman argues that “the
absence of vaginal trauma and the victim’s shoe being off
2 The fact that Soria briefly posited the possibility of an
unintentional killing as an alternative argument did not mean that he
should have pursued it more vigorously.

(lb Of 2bj

Case: 10-99004, 03/27/2020, ID: 11643446, DktEntry: 349-1, Page 16 of 21

16

Berryman v. Wong

established there was no rape, (i.e., the assault occurred after
consensual intercourse, the disarranged clothing being
equally consistent with hurried voluntary sexual interaction
as with rape).” But the absence of vaginal trauma
“establishes” nothing of the kind, especially considering that
Hildreth had pelvic abrasions and a knife wound in her neck,
suggesting that the knife may have been held to her throat.
Whether or not the state of her shoes and clothing was
“equally consistent” with rape and consensual sex, it did
nothing to support the theory that Berryman killed her
unintentionally or without premeditation.
By adopting this far-fetched theory, Berryman’s lawyers
would have lost the ability to argue the more straightforward
theory that the police had arrested the wrong person.. The
circumstantial evidence tying Berryman to the scene was not
insurmountable. The strongest piece of evidence was the
drop of blood on Berryman’s shoe, consistent with only 1 in
1,470 unrelated African-Americans. Berryman, 864 P.2d
at 49. But Berryman had a ready reply: The blood could
have come from any of Hildreth’s relatives, with whom he
frequently had contact. As for the fingerprint in his truck,
his lawyers also had a response prepared: Even though
Hildreth had never ridden in his truck, she still could have
left a print by leaning against the car while talking. The
straightforward innocence argument that Berryman’s
lawyers pursued was not a lost cause.
The California Supreme Court reasonably concluded
that a mens rea defense theory would not have been
reasonably probable to persuade the jury to acquit. See
28 U.S.C. § 2254(d)(1). Even if we assume that counsel
rendered deficient performance in failing to conduct further
investigation, it was eminently reasonable for the court to
conclude that Berryman failed to show that the omission of

Case: 10-99004, 03/27/2020, ID: 11643446, DktEntry: 349-1, Page 17 of 21

Berryman v. Wong

17

this argument adversely affected the outcome, as counsel
was more likely to succeed in arguing that Benyman had not
killed Hildreth at all.
C. Claims 63 and 64
Berryman also requests that we expand the COA to
encompass Claims 63 and 64, which together assert that his
lawyer was ineffective at both the guilt and penalty phases
for failing to obtain the trial court’s transport order and
funding authorization for the EEG tests and PET scan.
Benyman argues the tests “were necessary to support the
defense experts conclusion” that he had brain damage,
including a possible seizure disorder. We again conclude
that “jurists of reason could disagree” with the district
court’s denial of these claims, and therefore expand the COA
to encompass them. Miller-El, 537 U.S. at 327; 28 U S C
§ 2253(c)(2).
- In denying relief as to Claims 63 and 64, the California
Supreme Court stated as follows:
[Djefendant does not establish ineffective
assistance in defense counsel’s asserted
failure to pursue neurological testing to
determine whether and to what extent he
suffered from an organic mental syndrome or
disorder. He does not demonstrate that such
testing would have yielded favorable results.
Hence, he cannot demonstrate that its
omission adversely affected the outcome
within a reasonable probability.
Berryman, 864 P.2d at 78. As Benyman reads this decision,
the California Supreme Court denied his claim because he
could not show what the results of the various tests would

(i / or zb)

li a ot Zb)
Case: 10-99004, 03/27/2020, ID: 11643446, DktEntry: 349-1, Page 18 of 21

18

Berryman v. Wong

have been. And because the state court had denied his
requests for funding to have those tests performed, he argues
that he was left in an “unreasonable catch-22,” penalized for
not knowing what the state court would not let him find out.
Although we agree with Berryman that a ruling on the
circular ground he describes would have been unfair, the
state court’s use of the words “favorable results” is best
understood more broadly. In the guilt-phase context, we
read the California Supreme Court’s reference to “favorable
results” to mean test results that could help convince a juror
to acquit. And in the penalty-phase context, we read
“favorable results” to mean test results that could help
convince a juror to vote for life—that is, results whose
absence could have “affected the outcome within a
reasonable probability.” Id.
The California Supreme Court’s conclusion that the tests
lacked the capacity to produce results that might have moved
a juror to vote to acquit (or to vote for life in prison) was
reasonable. See 28 U.S.C. § 2254(d)(1). Berryman had been
convicted of the rape and murder of a teenage girl. In the
best-case scenario, the tests his experts wanted to conduct
would have confirmed their diagnosis that he had brain
damage. (The jury did hear Berryman’s experts opine that
he suffered from organic brain disease.) This argument
hinges on Berryman’s assumption that the tests could have
confirmed That he had a seizure disorder, and that those
seizures could have caused him to become violent. Even
assuming the efficacy and admissibility of the testing, the
tests were not capable of showing that Berryman had
actually experienced seizures at any time in the past, much
less that he was having a seizure when he killed Florence
Hildreth. See Pizzuto v. Arave, 280 F.3d 949, 964 (9th Cir.
2002), as amended, 385 F.3d 1247 (9th Cir. 2004).

Case: 10-99004, 03/27/2020, ID: 11643446, DktEntry: 349-1, Page 19 of 21

Berryman v. Wong

19

What’s more, as Dr. Benson acknowledged, it would not
have been possible for Berryman to commit rape if he were
having a seizure. This theory therefore would have required
a jury to believe that Benyman first engaged in sex with
Hildreth and then had a seizure that caused him to lose
control and kill her. The evidence showed, however, that
she was killed by a relatively shallow cut, not by “thrashing
out” or other especially violent activity that Dr. Benson
described as possible in the course of a seizure. Berryman,
864 P.2d at 49. As discussed above with respect to Claims
15 and 16, Berryman’s lawyers would likely have had great
difficulty persuading the jury to accept this version of events,
no matter what the test results showed. It was reasonable for
the California Supreme Court to conclude that Berryman
suffered no prejudice from his defense counsel’s failure to
seek out these tests and press this argument, either at the guilt
phase or during the penalty phase.
As for the argument that obtaining conclusive proof of
Berryman’s alleged brain injuries might have persuaded the
jury to show Berryman more leniency in sentencing,
Berryman s lawyers would have faced similar challenges.
• The fact remains that neither Berryman nor anyone else
reported that he had ever suffered a seizure, a blackout, or
disorientation. And while brain damage could have
manifested itself in other ways, the jury was already well
acquainted with Berryman’s trouble in school, alcohol
abuse, head trauma, and other difficulties. Jurors knew that
he had areas of relative strength: He had married, held jobs,
and had a year-long period of stability in which he
functioned as a good father, good husband, and dedicated
member of his church. The state court reasonably concluded
that, even if testing could have made the expert diagnoses
invulnerable to attack by the prosecution, the fact of brain
damage without further evidence of actual manifestations or

(iy or zb)

Case: 10-99004, 03/27/2020, ID: 11643446, DktEntry: 349-1, Page 20 of 21

20

Berryman v. Wong

identifiable impact on Benyman’s life was not reasonably
likely to have made a difference in the jury’s sentence.
Claims 63 and 64 are further undermined by the
neurological testing that Berryman eventually obtained in
2001. In the course of his federal habeas proceeding, the
district court granted permission for Berryman to receive the
specialized neurological testing that Drs. Pierce and Benson
requested. The 2001 test results confirm our conclusion that
the California Supreme Court did not unreasonably
determine that Berryman was not prejudiced by the omission
of these tests at trial. First, it is unclear whether the test
results would have been admissible under the thenprevailing standard for scientific evidence. In its opposition
to the request for this testing in the district court, the
government strenuously argued that the tests were not
generally accepted in the scientific community for the
purposes that Berryman’s experts advocated,
The
government argued the tests should not be performed for that
reason. In its order denying Berryman’s habeas petition, the
district court acknowledged the controversy regarding the
admissibility of the tests and did not decide whether the test
results would have met the standard for admissibility.
Second, even if the neurological test results would have
been admissible, Berryman cannot establish a reasonable
probability that they would have changed the outcome.
Benyman’s experts stated that the test results reinforced
their penalty-phase testimony that Berryman had an organic
brain disorder, but the state’s experts strongly disagreed with
their interpretation. Dr. Waxman stated that the PET scan
results did not indicate temporal lobe epilepsy and went on
to suggest that Berryman’s expert had presented an
interpretation designed to “mislead the reader.” Dr. Nuwer
stated that the EEG tests indicated “normal EEG brainwaves

(2U or zb)

Case: 10-99004, 03/27/2020, ID: 11643446, DktEntry: 349-1, Page 21 of 21

Berryman v. Wong

21

as seen in someone who is intoxicated and drowsy.” The
disputed results from these neurological tests reinforce our
conclusion that Berryman was not prejudiced by his
counsel’s failure to authorize these tests during the guilt or
penalty phase.
*

*•

*

We therefore affirm the district court’s denial of
Berryman’s habeas petition as to each of his claims.
Berryman’s requests for judicial notice (Dkt. Nos. 190, 256).
are GRANTED.
AFFIRMED.

(2i or zb)

APPENDIX "B"
x

Case l:95-cv-05309-AWI Document 414 Filed 01/15/10 Page 1 of 14

1
2
3
4
5
6

IN THE UNITED STATES DISTRICT COURT FOR THE

7

EASTERN DISTRICT OF CALIFORNIA

8
9
10
11
12
13

RODNEY BERRYMAN, Sr.,

Case No. 1:95-cv-05309-AWI

)
)
Petitioner,
)
)
vs.
)
)
ROBERT K. WONG, as Acting Warden of )
San Quentin State Prison,
)
i
Respondent )

DEATH PENALTY CASE
ORDER DENYING CLAIM 18; DENYING
PETITION FOR WRIT OF HABEAS
CORPUS; AND GRANTING CERTIFICATE
OF APPEALABILITY

y

14
15

This matter is before the Court following further evidentiary development and briefing by the

16

parties concerning the merits of Claim 18. Having considered all the evidence presented by Petitioner

17

Rodney Berryman, Sr. (“Berryman”) in support of Claim 18 as well as the parties’ respective points and

18

authorities in support of and in opposition to Claim 18, the Court denies relief. With the resolution of

19

Claim 18, there are no unresolved claims remaining in Berryman’s First Amended Petition (the

20

“Petition”) (Doc. 147) and therefore the Court denies Berryman’s petition for a Writ of Habeas Corpus.

21

With the denial of the writ, the Court grants a certificate of appealability on Berryman’s allegations that

22

trial counsel provided constitutionally ineffective representation at penalty proceedings for failure to

23

develop and present mitigating evidence, as alleged in Claim 65 of the Petition.

24

I.

Background

25

This case arises from Berryman’s conviction and death sentence for the rape and murder of 17

26

year old Florence Hildreth. On July 10,2007, the Court issued a 272-page Memorandum Order (Doc.

27

351) denying relief and Berryman’s request for an evidentiary hearing on all claims and allegations with

28

the exception of Claim 18, which alleged one of his two trial attorneys, Charles Soria, slept during
95dp5309.ODenyClml8DenyWritHCGrantCOA.Ber.wpd

1

Case l:95-cv-05309-AWI Document 414 Filed 01/15/10 Page 2 of 14

1

crucial portions of the trial. The controlling authority on the issue of a sleeping attorney is Javor v.

2

United States, 724 F.2d 831, 833 (9th Cir. 1984), which holds that “when an attorney for a criminal

3

defendant sleeps through a substantial portion of the trial, such conduct is inherently prejudicial and thus

4

no separate showing of prejudice is necessary.” Although the Court was not convinced from reviewing

5

the record and the supporting declaration of Juror David Armendariz that Mr. Soria actually did sleep

6

for “a substantial portion of the trial,” further development was authorized as to Mr. Soria’s trial

7

conduct, demeanor, and attentiveness, with permitted inquiries directed to actual jurors (in addition to

8

Mr. Armendariz), the trial judge, the trial prosecutor, any reliable spectators, and any other trial

9

participants. Doc. 351: 272. The Court left open the possibility that the presence of Mr. Soria’s co­

10

counsel, George Peterson, may have undermined the existence of inherent prejudice discussed in the

11

Javor holding, since Javor involved only one counsel for the defendant whereas Berryman had two

12

attorneys. No further evidentiary development was authorized on this collateral inquiry.

13

Thereafter, the parties conducted informal discovery on the issue of whether Mr. Soria slept

14

during a substantial portion of the trial. The result of these informal discovery and investigative efforts

15

were presented to the Court in a Joint Status Report filed April 7, 2008 (Doc. 364). The parties

16

interviewed jurors Marilyn Newbies, Mary Moon, Steven Greenwood, Gene Bibb, and David

17

Armendariz. Jurors Newbies, Moon, Greenwood, and Bibb were interviewed by telephonic conference

18

call on January 25,2008. A fifth former juror, Michael Carr, failed to answer his telephone on that day,

19

although the interview was pre-arranged.1 Attempts to locate and contact other jurors (not including Mr.

20

Armendariz) were unsuccessful. Mr. Armendariz was interviewed separately by telephonic conference

21

on February 21, 2008. Berryman’s federal habeas corpus co-counsel, Jessie Morris, Jr., obtained a

22

supplemental declaration from Mr. Soria, which Mr. Soria executed on February 16,2008. Efforts to

23

contact former Deputy District Attorney (now retired Judge) Romero Moench initially were

24

unsuccessful, but the Warden was able to secure Judge Moench’s declaration on September 25, 2008

25

and present it with his opposition points and authorities. The presiding trial judge, Judge Arthur

26
27
28

i

Neither party indicated whether Mr. Carr was re-contacted.

95dp5309.ODenyClml8DenyWritHCGrantCOA.Ber.wpd

2

Case l:95-cv-05309-AWI Document 414 Filed 01/15/10 Page 3 of 14
1

Wallace, consented to be interviewed on March 6,2008. One of the court reporters,2 Minnal Humman,

2

consented to be interviewed by Deputy Attorney General Brian Means, counsel of record for Respondent

3

Robert K. Wong, as Acting Warden of San Quentin State Prison (the “Warden”). The other court

4

reporter, the bailiff, and the court clerk were not located. No testimony from Mr. Peterson was

5

developed from Mr. Peterson because Berryman’s litigation team was not successful in getting him to

6

return telephone calls.

7

Despite having been given permission to conduct discovery on the issue of Mr. Soria’s

8

somnolence pursuant to Rule 6 of the Rules Governing § 2254 Cases in the July 10, 2007 Order,

9

Berryman requested leave of the Court to conduct depositions on this subject as well as on the issue of

10

the extent of Mr. Soria’s participation during the penalty phase trial proceedings. Berryman proposed

11

to depose Mr. Armendariz and Mr. Peterson on the subject of Mr. Soria’s attentiveness. He proposed

12

to depose Mr. Soria, trial investigator Ed Beadle, and Mr. Peterson on the extent of Mr. Soria’s

13
14

participation during Berryman’s penalty phase proceedings. The Court denied leave for Berryman to
i

explore the extent and scope of Mr. Soria’s participation in the penalty phase trial proceedings through

15

the testimony of Mr. Soria, Mr. Beadle, or Mr. Peterson, but reconfirmed Berryman’s entitlement to

16

depose Mr. Armendariz and Mr. Peterson on the issue of Mr.Soria’s attentiveness or somnolence.

17

Depositions of Mr. Armendariz and Mr. Peterson were conducted on January 16, 2009 and

18

January 22, 2009, respectively. Berryman filed his points and authorities in support of Claim 18 on

19

April 1, 2009. The Warden’s opposition and offer of Judge Moench’s declaration were filed on April

20

15,2009. Berryman’s reply points and authorities were filed on May 12, 2009.

21

n.

Summary of the Facts Relevant to Claim 18

22

Claim 18 in the Petition alleges simply that Berryman’s conviction, death eligibility, and death

23

sentence are unlawful and unconstitutional because Mr. Soria was asleep during “crucial portions” of

24

his trial. As a result, Berryman claims he was denied effective assistance of counsel, his right to

25

confrontation and his right to cross-examination. Doc. 147: 33. The evidence pertaining to this claim

!

26
27
28

2 It’s not clear from the Joint Statement whether there were two or three court reporters; both
numbers are given.
95dp5309.ODenyClml8DenyWritHCGrantCOA.Ber.wpd

3

Case l:95-cv-05309-AWI Document 414 Filed 01/15/10 Page 4 of 14
1

consists of statements elicited from Mr. Armendariz, other jurors, the trial judge, one of the two court

2

reporters, Mr. Soria, Mr. Peterson, and the prosecutor, retired Judge Moench.

3

A.

4

Berryman’s initial offer of proof supporting Claim 18 was a declaration signed by Mr.

5
6
7

David Armendariz

Armendariz and filed with the Court on October 10, 2001. Mr. Armendariz averred:
... I noticed that Soria had a tendency to nod off at times. His arm resting on the table
occasionally slid off. It didn’t happen all the time, usually when the Deputy DA was
talking. I don’t believe this fact had an impact on the jury’s deliberations or their
confidence in what Soria told us, but we all noticed it.

8
9
10
11
12
13
14

Armendariz Deck, TJ 3.
The April 7, 2008 Joint Status Report provides a summary of Mr. Armendariz’s statements
during his February 21, 2008 telephonic conference with the parties’ attorneys:
Mr. Armendariz reiterated that he observed Soria with his hand on his chin, and his arm
would slip off the table. This happened several times. His eyes were not Dully shut, but
not fully open. When asked whether he could be certain whether Soria was asleep, Mr.
Armendariz responded, “no.” Mr. Armendariz was not certain what parts of the trial this
occurred in, but he associated at least one occurrence with the penalty phase of the trial.
He remembers that the subject was discussed with other jurors.

15
16

Doc. 364: 2

17

At his deposition, under questioning by Berryman’s counsel, Mr. Armendariz admitted there

18

could have been four to seven times he might have observed Mr. Soria with this head on his hand and

19

possibly with his eyes closed. Mr. Soria’s conduct was a topic of discussion among the jurors during

20

breaks in the proceedings, but not during deliberations. Armendariz Depo: 10-11. Later, he said that

21

the discussion with other jurors about Mr.Soria really consisted merely of passing comments to two

22

female jurors. Id.: 36. Both of these jurors agreed with Mr. Armendariz that Mr. Soria appeared to have

23

nodded off. Id at 37.

24

Mr. Armendariz could not remember whether Mr. Soria’s somnolence occurred during the guilt

25

phase or the penalty phase of the trial. Id.: 13. He clarified, however, that Mr. Soria did not appear to

26

be in a state of somnolence for more than a “couple of seconds” at a time. Mr. Soria appeared fatigued

27

or tired. Id.: 14. Later Mr. Armendariz testified: “It’s my personal opinion that he [meaning Mr. Soria]

28

at times was somewhat - - for some short periods of - - like he [Mr. Soria] said, a fleeting moment
95dp5309.ODenyClml8DenyWritHCGrantCOA.Ber.wpd

4

Case l:95-cv-05309-AWI Document 414 Filed 01/15/10 Page 5 of 14
1

inattentive, I would say.” Id.: 17. In this passage, Mr. Armendariz was referring to Mr. Soria’s

2

declaration (summarized below). Mr. Armendariz agreed with Berryman’s counsel that Mr. Soria was

3; “at least a little inattentive,” but could not say whether he was asleep or even if his eyes were closed for
4

more than a fleeting moment, if his eyes were closed at all. Id. He attributed the appearance of Mr.

5

Soria’s eyes possibly being closed on his (Mr. Soria’s) husky, chubby frame. Id. 24-25. On cross

6

examination, he clarified that when Mr. Soria leaned his chin on his had, it appeared his eyes were shut

7

for “a little nanosecond or whatever.” Id.: 27.

8

During examination by the Warden’s counsel, Mr. Armendariz testified he thought Mr. Soria’s

9

head on the hand poses occurred three to five times rather than six to seven times: Id.: 22. Mr.

10

Armendariz’s recollection of the length of the entire trial is inconsistent with the actual length of the

11

proceedings. Whereas Mr. Armendariz testified he thought the entire trial was conducted “within a

12

week,” id.: 24, in fact, opening statements at the guilt phase commenced on September 26,1988, a guilt

13

verdict was returned on October 18, 1988, the penalty phase evidence was given from October 24

14

through 27, 1988, and deliberations proceeded from October 27 through 28, 1988.

15

B.

16

According to the April 7, 2008 Joint Status Report, none of the other jurors contacted and

17

telephonically interviewed, Marilyn Newbies, Mary Moon, Steven Greenwood, and Gene Bibb,

18

“remembered seeing anyone sleeping or nodding off during the trial.” Doc. 364: 2.

Other Jurors

19

C.

20

The parties reported in the Joint Status Report that the trial judge, the Honorable Arthur E.

21

Wallace, consented to an interview. “Ask if he observed Mr. Soria or any other attorney sleeping or

22

nodding off, Judge Wallace stated that he ‘certainly didn’t notice that.’ Had he noticed it, he stated he

23

would have called the attorney’s attention to such conduct, and made sure that he was awake.” Doc.

24

364: 4.

The Trial Judge

25

D.

26

The court reporter located spoke with the Warden’s counsel. She reported “she did not see

27

anyone asleep during the trial, including defense counsel. She commented, however, that she would not

One of the Trial Court Reporters

28
95dp5309.ODenyClml8DenyWritHCGrantCOA.Ber.wpd

5

Case l:95-cv-05309-AWI Document 414 Filed 01/15/10 Page 6 of 14

1

necessarily have seen anyone sleeping since she frequently looks down when she is reporting.” Doc.

2

364: 4.

3

E.

4

Judge Moench averred in his declaration (attached to Doc. 405) he “did not observe Mr. Soria

Romero Moench

5

sleeping, or appearing to fall asleep, at any time during the penalty phase of trial.” Moench Decl.: 2.

6

He added that he was sitting in a position throughout the trial that had Mr. Soria fallen asleep, he would

7

have been aware of that fact. Id.

8

F.

Charles Soria

9

In Mr. Soria’s declaration, appended to the Joint Status Report, he avers he was appointed as lead

10

counsel in Berryman’s case on September 11, 1987, and that on April 6, 1988, George Peterson was

11

appointed as co-counsel. He avers that he and Mr. Peterson “divided tasks for the trial,” with Mr. Soria

12

taking “responsibility for the guilt phase of the trial,” and if that phase resulted in a guilty verdict with

13

special circumstances, “attorney Peterson would then proceed with presentation of the penalty phase.”

14

Regarding the allegation of his somnolence, Mr. Soria avers: “I deny falling asleep.” To bolster his

15

position he states: “I was fully engaged in the trial proceedings, particularly the guilt phase.” Doc. 364:

16

5. He explains that during the penalty phase: “Peterson was the active participant, and I adopted the

17

passive role of second chair during his presentation.” He explains, “[t]here were no assigned tasks for

18

me during the penalty phase presentation, [as] George Peterson handled that portion.” Because he was

19

angry with the jury members after the guilt proceedings resulted in a guilty verdict, Mr. Soria states he

20

avoided eye contact with the jurors, but the “change in eye contact and [his] change in activity was not

21

inattention during the trial.” Id.: 7.

22

Although Mr. Soria was tired during the penalty phase trial, he “never fell asleep,” and any

23

allegation that his headed nodded as it rested on his hand “would have been nothing more than a flicker

24

of fatigue with instantaneous alertness.” Continuing, he avers, “Any momentary head nod during the

25

penalty phase would have been so fleeting it never approached inattention or sleep. [He] did not fall

26

asleep during the trial in spite of any observed fatigue.” Id. He feels that his presence really was

27

unnecessary at the penalty phase proceedings and that reading the daily transcripts would have sufficed,

28
95dp5309.ODenyClml8DenyWritHCGrantCOA.Ber.wpd

6

Case l:95-cv-05309-AWi Document 414 Filed 01/15/10 Page 7 of 14
1

but he was present and ready to assist as necessary. He concludes: “The fact of my inactivity is not

2

inattention on my part. I was attentive.” Id: 8.

3

G.

4

Mr. Peterson testified that he may have seen Mr. Soria lean his chin on his hand during the trial,

5

but he could not say how many times ,he observed this and he never observed that Mr. Soria’s eyes were

6

closed. Peterson Depo: 8. Later, he testified he could not honestly say whether Mr. Soria rested his head

7

on his hand during the trial. Id: 15. He was never aware Mr. Soria was asleep or might be asleep during

8

the trial proceedings or that Mr. Soria’s eyelids might be drooping. Id: 16. He conceded, however, that

9

Mr. Soria’s “dozing,” as described by Mr. Armendariz, could have occurred without his (Mr. Peterson’s)

10

awareness. Id: 19. On cross examination, Mr. Peterson further clarified that he was under the

11

impression Mr. Soria was attentive throughout the trial. The idea that Mr. Soria fell asleep or became

12

inattentive during anyportion of the trial is inconsistent with Mr. Peterson’s observations of Mr. Soria’s

13

trial performance. Id: 21.

George Peterson

14

In Berryman’s case, Mr. Soria was lead counsel. Mr. Peterson was associated in as second

15

counsel. Id: 9,17. Mr. Soria was involved in all the decision-making for the case from start to finish.

16

Id: 11. When Mr. Peterson was asked to come into a death penalty case as second counsel, he generally

17

handled the penalty phase. Id.: 10. He believes this arrangement for dividing the labor is likely the way

18

the Berryman case was handled. Id: 10-11. Mr. Soria’ custom for communicating with Mr. Peterson

19

while Mr. Peterson was trying the case was to be very discreet, tapping Mr. Peterson on the arm and

20

making suggestions or providing Mr. Peterson with various objects. Mr. Soria did not interrupt Mr.

21

Peterson when Mr. Peterson was introducing exhibits or questioning witnesses. Id: 12, 18.

22

III.

23

The Parties’ Respective Arguments
The parties agree on neither the import of the foregoing evidence nor the application of

24

controlling law.

25

A.

26

Berryman argues the foregoing evidence establishes that Mr. Soria did sleep during portions of

27

the trial, based on his own admission in his declaration and in Mr. Armendariz’s observation. The

28

somnolence would have occurred during the penalty phase (while Mr. Peterson was trying the case) and

Berryman’s Contentions

95dp5309.ODenyClml8DenyWritHCGrantCOA.Ber.wpd

7

Case l:95-cv-05309-AWI Document 414 Filed 01/15/10 Page 8 of 14

1

possibly also during the guilt phase while the prosecutor was engaged in cross examination (or talking).

2

Berryman contends that the statements of other witnesses at the trial should be discounted because they

3

were not actually looking at Mr. Soria. Since Mr. Soria appeared to Mr. Armendariz to be dozing off

4

and Mr. Soria, himself, admitted that his conduct-may have given the appearance he was sleeping, a

5

dereliction of duty at a capital trial occurred. Berryman argues that an awake attorney does not appear
i

6

to be dozing.

7

Berryman compares Mr. Soria’s conduct with that of the defense lawyers in Javor v. United

8

States, 724 F.2d 831 (9th Cir. 1984), Tippins v. Walker, 77 F.3d 682 (2d Cir. 1996), and Burdine v.

9

Johnsdn, 262 F.3d 336 (5th Cir. 2001), where the lawyers were asleep or appeared to be asleep during

10

portions of the trials. Because an attorney’s somnolence essentially deprives a defendant of counsel

11

guaranteed under the Sixth Amendment, the conduct amounts to structural error under Arizona v.

12

Fulminante, 499 U.S. 379,407 (1991), requiringno prejudice analysis. Javor, 724 F.2d at 834; Tippins,

X

77 F.3d at 686-86; Burdine, 262 F.3d at 349.

14

He argues that the duration of sleep in Javor was only momentary.

15

B.

16

In contrast, the Warden maintains there is no evidence that Mr. Soria fell asleep at Berryman’s

17

trial and that even ifMr. Soria was inattentive to the proceedings at times, Berryman was not prejudiced

18

as a result. The Warden also urges the Court to reject Claim 18 because the California Supreme Court

19

previously denied the same allegations on the merits and on procedural grounds and Berryman has not

20

demonstrated that the state court adjudication was contrary to or an unreasonable application of clearly

21

established United States Supreme Court precedent, 28 U.S.C. § 2254(d)(1). Finally, the Warden argues

22

that because the Supreme Court has not “squarely addressed” whether presumed prejudice for one

23

sleeping attorney in a case like Javor applies where the defendant is represented by two attorneys, relief

24

is not available, citing Knowles v. Mirayance,___U.S. ___, 129 S.Ct. 1411 (2009)

25

IV.

26
27

The Warden’s Contentions

Analysis
In a case such as this, where the evidence in support of the petitioner’s claim was adduced during

federal habeas corpus proceedings, AEDPA deference under 28 U.S.C. § 2254(d)(1) does not apply.

28
95dp5309.ODenyClml8DenyWritHCGrantCOA.Ber.wpd

8

Case l:95-cv-05309-AWI Document 414 Filed 01/15/10 Page 9 of 14

1

Killian v. Poole, 282 F.3d 1204,1208 (9th Cir. 2002).3 The only factual issue to be resolved is whether

2

Mr. Soria was asleep “through a substantial portion of the trial.” Javor, 724 F.3d at 833. If so, “such

3

conduct is inherently prejudicial and thus no separate showing of prejudice is necessary.” Id. If not,

4

Berryman’s Claim 18 reverts to a standard ineffective assistance of counsel claim under Strickland v.

5

Washington, 466 U.S. 668 (1984), and he must establish both deficient performance and prejudice. Id.

6

at 687.

7

Berryman posits that because no one can be sure Mr. Soria actually was asleep during portions

8

of the trial, since at the very least he gave the appearance of being asleep on three to five occasions, his

9

case comes within the holding of Javor, prejudice is presumed and relief must be granted. This negative

10

inference approach discards Berryman’s burden of presenting evidence showing that Mr. Soria was

11

asleep during a substantial portion of the trial. Whether Mr. Soria admits that his fatigued appearance

12

could have given an onlooker the impression he was asleep is beside the point. He adamantly denied

13

being asleep at all during the trial. Mr. Armendariz’s observations of fleeting inattentiveness in Mr.

14

Soria also do not come close to demonstrating somnolence during “a substantial portion of the trial” let

15

alone any portion of the trial. Observing Mr. Soria’s eyes partially closed three to five times during a

16

trial that lasted from September 18 to October 28, 1988 does not meet the “substantial portion”

17

threshold. Berryman has not met his burden. The presumed prejudice standard under Javor, does not

18

apply;4 Berryman must satisfy both the deficient performance and prejudice requirements ofStrickland.

19

r' In

the July 10, 2007 Order the Court previously chronicled omissions in the trial performance

20

of Messrs. Soria and Peterson, but was not able find any of those omissions singularly or cumulatively

21

prejudicial.

22

1.

Failure of trial counsel to note guilt phase pre-instructions that the rape death

23

eligibility special circumstances coulcl be predicated on attempted or completed

24

rape (Claims 19 and 52);

25
26
27
28

3 The Warden acknowledges this controlling authority in his opposition brief and still presses his
case for AEDPA deference.
4 Because of this finding, the Court is not called upon to determine whether Mr. Peterson’s
presence and participation had an impact on the presumed prejudice standard.
95dp5309.ODenyClml8DenyWritHCGrantCOA.Ber.wpd

9

Case l:95-cv-05309-AWI Document 414 Filed 01/15/10 Page 10 of 14

1

2.

Failure of trial counsel to object to Mr. Moench’s summation at the guilt and

2

penalty phases that the pathologist opined Berryman stood on Ms. Hildreth’s

3

face for three to five minutes as she lay bleeding to death (when in fact the

4

pathologist testified Ms. Hildreth’s survival time after being stabbed was three

5

to five minutes) (Claims 8, 29, 75);

6

3.

Failure of trial counsel to object to Mr. Moench’s misstatement about the order

7

of deliberations on degrees of murder during guilt phase summation (Claims 8,

8

37);

9

4.

Failure of trial counsel to object during penalty proceedings to testimony elicited

10

from Berryman’s older brother Ronald Berryman, Jr., and other character

11

witnesses during Mr. Moench’s cross examination about the facts leading to

12

Berryman’s prior felony conviction for transporting marijuana (i.e., that Ronald,

13

Jr. and Berryman were selling marijuana to high school students) (Claims 8,14);

14

5.

Failure of trial counsel to object to testimony of David Perez during penalty

15

proceedings that while he was being assaulted by Berryman and others, someone

16

yelled “L.A. Cryps”(Claims 8, 61);

17

6.

Failure of trial counsel to object to Mr. Moench’s cross examination of

18

Berryman’s character witnesses during penalty proceedings that Berryman forced

19

Ms. Hildreth to orally copulate him (Claims 8, 54);

20

7.

•21
22

Failure of trial counsel to object to testimony about Berryman’s extra-marital
affairs during cross examination of Berryman’s character witnesses (Claim 14);

8.

Failure of trial counsel to object to Mr. Moench’s references to Charles Manson

23

and Sirhan Sirhan during his cross examination of psychologist expert Dr.

24

William Pierce (Claim 58);

25

9.

Failure of trial counsel to object to Mr. Moench’s repeated reference to ascending

26

and descending degrees of psychological impairment (suggesting that Berryman

27

was not impaired) during penalty phase cross examination of Dr. Pierce (Claim

28

16);
95dp5309.ODenyClml8DenyWntHCGrantCOA.Ber.wpd

10

Case l:95-cv-05309-AWI Document 414 Filed 01/15/10 Page 11 of 14

1

10.

Failure of trial counsel to object to Mr. Moench’s penalty summation that

2

Berryman’s psychologist expert, Dr. William Pierce, opined that Berryman was

3

amoral (when in fact Dr. Pierce testified Berryman had exhibited asocial

4

behavior) (Claim 8);

5

11.

Failure of trial counsel to object to Mr. Moench’s penalty summation that
Berryman’s philandering was a factor in aggravation of his sentence (Claim 8).

6
7

12.

Failure of trial counsel to object to Mr. Moench’s penalty summation that

8

Berryman struck Mr. Perez with a tire iron while others were holding him (when

9

in fact there was no evidence any of Mr. Perez’s attackers were holding him
when Berryman struck him) (Claims 95, 96)

10
11

One additional missed objection to alleged prosecutorial misconduct mentioned in Claim 18 but

12

not discussed in connection with other claims involved Mr. Moench’s argument on penalty summation

13

that Berryman obtained a gun after Ms. Hildreth’s death was announced and intended to shoot up the

14

house of a family friend (of Ms. Hildreth) to create a diversion. See July 10,2007 order, Part in.B., pp.

15

29-30. The Court previously observed there was no evidence supporting Mr. Moench’s statement in this

16

regard. Although the argument grossly overstated the evidence (that Berryman had asked a friend for

• 17
/

a gun, but didn’t in fact obtain one), it was not the linchpin of the prosecution case and was mentioned

18

only once. Far more emphasized by Mr. Moench and damaging to Berryman were the arguments

19

documenting his escalating violence towards others and determination to get his way, even when

20

confronted with Ms. Hildreth’s ultimately ineffectual resistance to his sexual advances. None of the

21

omissions potentially or actually attributable to Mr. Soria’s appearance of sleepiness and admitted

22

tiredness at the penalty phase, either singularly or cumulatively satisfy the prejudice prong of the

23

Strckland analysis. Had Mr. Soria and Mr. Peterson made every objection Berryman argues they should

24

have made the result of the trial proceedings, both at guilt and at penalty, would not have been different.

25

Claim 18 is denied on the merits.

26

V.

Certificate of Appealability

27

Effective December 1, 2009, Rule 11(a) of the Rules Governing § 2254 Cases charge district

28

courts with issuing or denying a certificate of appealability (“COA”) when entering a final order adverse
95dp5309.ODenyClml8DenyWritHCGrantCOA.Ber.wpd

11

X

Case l:95-cv-05309-AWI Document 414 Filed 01/15/10 Page 12 of 14
1

to a petitioner for a writ of habeas corpus. The standard for granting a COA under 28 U.S.C. §

2

2253(c)(2) is a “substantial showing of the denial of a constitutional right.” This, in turn, requires a

3

“showing that reasonable jurists could debate whether... the petition should have been resolved in a

4

different manner or that the issues presented were ‘adequate to deserve encouragement to proceed

5

further.”’ Slack v. McDaniel, 529 U.S. 473, 484 (2000); Sassounian v. Roe, 230 F.3d 1097, 1101 (9th

6

Cir. 2000). Meeting this standard is not onerous. Rather, the standard “is relatively low.” Jennings v.

7

Woodford, 290 F.3d 1006, 1010 (9th Cir. 2002); Beardslee v. Brown, 393 F.3d 899, 901-02 (9th Cir.

8

2004). For the Court to issue a COA, Berryman “need not show that he should prevail on the merits,”

9

Barefoot v. Estelle, 463 U.S. 880,893, n. 4 (1983), but must meet the threshold requirement of showing

10

that reasonable jurists could debate whether the claims should have been resolved differently or that the

11

issues presented deserve encouragement to proceed further. See Miller-El v. Cockrell, 537 U.S. 322,

12

336 (2003).

13

The Court has carefully reviewed the July 10, 2007 Order to determine which if any of

14

Berryman’s claims meet this standard. Except for Claim 65 alleging ineffective assistance of counsel

15

failure to uncover evidence of Berryman’s dysfunctional family history, Berryman has not met the

16

“relatively low standard” for issuance of a COA. As advanced in these federal proceedings, Berryman

17

claims extensive mental impairments and deficiencies. He is said to suffer from permanent pre-existing

- 18

mental disorders, severe mental and emotional impairments, the pervasive effects of organic brain

19

disease with resulting limited intellectual and cognitive capacity, overwhelming developmental trauma

20

including neglect, abandonment, emotional abuse, sexual abuse, plus, from the death of his father, post-

21

traumatic stress disorder, depression, paranoia, and substance abuse. The Court has accepted as true

22

evidence that Berryman was bom pre-maturely, the second child of teenage parents who were

23

unprepared and unqualified for parenthood. The Court recognized that the instability of the parental

24

relationship, the moving around, the joblessness of the father, the violence between the parents, and their

25

ultimate separation would take a toll on the children. Berryman’s father, in particular was a poor role

26

model with his substance abuse and womanizing. The Court found that Berryman’s poor academic

27

achievements also must have had a role in his failures in the employment world as well as in his inter­

28

personal relations. His past injuries, including from an industrial accident and the incident where his
95dp5309.ODenyClml8DenyWritHCGrantCOA.Ber.wpd

12

Case l:95-cv-05309-AWI Document 414 Filed 01/15/10 Page 13 of 14

•

1

wife struck him on the head with a metal flashlight also likely left him with residual headaches, perhaps

2

coupled with his well-documented excessive drinking. The Court’s impression of Berryman is that he

3

was a young man with a poor social foundation who made bad choices and then made more bad choices

4

escalating into violent outbursts occasioned by those choices, including the assault on motorist David

5

Perez, punching his father-in-law in the nose, continued drinking, not getting help, not obtaining regular

6

employment, trying to maintain multiple simultaneous intimate relationships, and running away from

7

his problems. The Court considered proffered, contested evidence from both Berryman and the Warden

8

that he (Berryman) suffered from a seizure disorder caused by either excessive alcohol consumption, his

9

injuries (particularly his head injury), or both. However, the Court rejected the notion that Berryman

10

suffered a seizure, or that a jury fully informed of all the evidence would have found he suffered a

11

seizure at the time of his fatal sexual assault on Ms. Hildreth. The Court further rejected Berryman’s

12

allegation that the penalty case was “close.” Neither the length of the deliberations nor anyjuror conduct

13

supported this allegation. Finally, the Court rejected the contention that Berryman had been sexually

14

abused by two of his mother’s younger brothers when he (Berryman) was a child. The foundational

15

evidence supporting this contention was derived from his mother’s and sister’s respective declarations.

16

Berryman was said to have revealed the fact of this childhood molestation while he was in the Kem

, 17

County Jail awaiting trial for the present offence. The declaration testimony of his mother and sister

18

lacked reliability, corroboration, and first-hand personal knowledge. It also was based on unexcepted

19

hearsay.

20

The COA as to Claim 65 is granted based on the Court’s rejection of Berryman’s alleged

21

childhood molestation, which Berryman has alleged contributed to his compromised mental state the

22

night he assaulted Ms. Hildreth. The Warden did not object to the sister’s or mother’s respective

23

declarations and some members of the Ninth Circuit Court of Appeals believe “[tjhere is something very

24

wrong with the [district] court sua sponte - and selectively - raising an objection that both parties have

25

bypassed.” Ayers v. Pinholster,

26

9,2009) (Kozinski, J., dissenting). The COA further is granted in light of 9th Circuit pronouncements

27

that sentencers must not be precluded from considering, and district courts must not reject, mitigating

28

evidence even though the crime is not attributable to that mitigating evidence. Schad v. Ryan, 581 F.3d

F.3d

95dp5309.ODenyClml8DenyWritHCGrantCOA.Ber.wpd

,___, n. 12,2009 WL 4641748, *51, n. 12(9thCir. Dec.

13

Case l:95-cv-05309-AWI Document 414 Filed 01/15/10 Page 14 of 14

1

1019,1036 (9th Cir. 2009);, Lambright v. Schriro, 490 F.3d 1103,1114-16 (2007); Hamilton v. Ayers,

2

583 F.3d 1100, 1132 (2009); but compare, Boyde v. California, 494 U.S. 370, 382 (1990) (“Evidence

3

regarding social background and mental health is significant, as there is a ‘belief, long held by this

4

society, that defendants who commit criminal acts that are attributable to a disadvantaged background

5

or to emotional and mental problems, maybe less culpable than defendants who have no such excuse’”

6

(emphasis added)).

7

VI.

8

Judgment
The Clerk is directed to enter judgment forthwith.

9
10

IT IS SO ORDERED.

11
12

DATE:

January 15, 2010
/s/ Anthony W, Ishii

13

Antlmrm AX/

.fA-ll tiivm V

TT .

ToViii

United States District Judge

14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
95dp5309.ODenyClml8DenyWritHCGrantCOA.Ber.wpd

14

c

APPENDIX "C,‘
xi

Case: 10-99004, 08/20/2020, ID: 11796206, DktEntry: 363, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

AUG 20 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

RODNEY BERRYMAN, Sr.,
Petitioner-Appellant,
v.

ROBERT K. WONG,

No.

10-99004

D.C.No. 1:95-cv-05309-AWI
Eastern District of California,
Fresno
ORDER

Respondent-Appellee.
Before: McKEOWN, CHRISTEN, and WATFORD, Circuit Judges.
The panel unanimously votes to deny the petition for panel rehearing and the
petition for rehearing en banc. The full court has been advised of the petition for
rehearing en banc, and no judge requested a vote on whether to rehear the matter
en banc. Fed. R. App. P. 35. The petition for panel rehearing and rehearing en
banc, filed July 8, 2020, is DENIED.

